         DEPARTMENT OF HEALTH & HUMAN SERVICES                          Office of Inspector General

                                                                        Office of Audit Services, Region V
                                                                        233 North Michigan Avenue
                                                                        Suite 1360
                                                                        Chicago, IL 60601



July 8, 2010

Report Number: A-05-09-00104

Ms. Regina Favors
President and Chief Executive Officer
Pinnacle Business Solutions, Inc.
515 West Pershing Boulevard
North Little Rock, AR 72114

Dear Ms. Favors:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of TriSpan Health Services, Inc., Medicare Payments
to Providers Terminated Between January 1, 2003, and January 31, 2007. We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact David Markulin, Audit Manager, at (312) 353-1644 or through email at
David.Markulin@oig.hhs.gov. Please refer to report number A-05-09-00104 in all
correspondence.

                                             Sincerely,


                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services
Enclosure
Page 2 – Ms. Regina Favors


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF

      INSPECTOR GENERAL





 REVIEW OF TRISPAN HEALTH

  SERVICES, INC., MEDICARE

  PAYMENTS TO PROVIDERS

   TERMINATED BETWEEN

    JANUARY 1, 2003, AND

      JANUARY 31, 2007




                      Daniel R. Levinson

                       Inspector General


                          July 2010

                        A-05-09-00104

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
Department of Health & Human Services
           OFFICE OF

      INSPECTOR GENERAL





 REVIEW OF TRISPAN HEALTH

  SERVICES, INC., MEDICARE

  PAYMENTS TO PROVIDERS

   TERMINATED BETWEEN

    JANUARY 1, 2003, AND

      JANUARY 31, 2007




                      Daniel R. Levinson

                       Inspector General


                          July 2010

                        A-05-09-00104

                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY


BACKGROUND


Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, uses Medicare contractors, such as fiscal intermediaries (FI), to process and pay
Medicare claims submitted by health care providers. Section 911 of the Medicare Prescription
Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173, which became effective
on October 1, 2005, amended certain sections of the Act to require that Medicare administrative
contractors (MAC) replace FIs and carriers by October 2011.

Medicare contractors, such as FIs and MACs, must comply with Medicare laws, regulations, and
guidance, including provisions for processing payments to terminated Medicare providers.
Section 1866(b) of the Act provides for the termination of provider agreements, which set forth
the terms and conditions for participation in the Medicare program. Sections 1814(a) and 1866
of the Act generally do not allow payment for services provided on or after an agreement’s
termination date. The Medicare Financial Management Manual, Pub. No. 100-06, chapter 7,
requires Medicare contractors to maintain internal controls to prevent erroneous payments;
chapter 3 requires Medicare contractors to pursue recovery of overpayments, including those
made to terminated Medicare providers.

TriSpan Health Services, Inc. (TriSpan) was the Louisiana and Mississippi FI during our audit
period (January 1, 2003, through January 31, 2007). In October 2009, the Louisiana and
Mississippi FI workload was reassigned to Pinnacle Business Solutions, Inc. (Pinnacle);
therefore, we are issuing our report to Pinnacle. CMS is currently taking corrective action on the
MAC contract award for the administration of Medicare Part A and Part B claims in Jurisdiction
7, which includes Louisiana and Mississippi.

OBJECTIVE

Our objective was to determine whether TriSpan recovered Medicare overpayments for services
furnished on or after the effective termination dates of provider agreements.

SUMMARY OF FINDING

TriSpan did not always recover Medicare overpayments for services furnished on or after the
effective termination dates of provider agreements. For 141 of the 145 terminated providers
whose payments we reviewed, TriSpan had not made material overpayments that were subject to
recovery as of the start of our audit. However, for the four remaining providers, TriSpan had not
recovered a total of $124,768 in overpayments that were subject to recovery. TriSpan had not
recovered the overpayments because it did not follow its procedures to retroactively identify
payments for posttermination services. Both TriSpan and Pinnacle confirmed that the
overpayments were subject to recovery.




                                                i
RECOMMENDATION

We recommend that Pinnacle recover $124,768 in overpayments to the four terminated
providers.

PINNACLE BUSINESS SOLUTIONS, INC., COMMENTS

In written comments to our draft report, Pinnacle agreed with our recommendation and provided
information on the status of its recovery efforts. Pinnacle’s comments are included in their
entirety as the Appendix.




                                              ii
                                                    TABLE OF CONTENTS 




INTRODUCTION......................................................................................................................... 1 


     BACKGROlJND ...................................................................................................................... 1 

       Medicare Program ............................................................................................................... 1 

       Medicare Payment Requirements ....................................................................................... 1 

       TriSpan Health Services, Inc. and Pinnacle Business Solutions, Inc ................................. 1 


     OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................... 1 

       Objective ............................................................................................................................. 1 

       Scope ................................................................................................................................... 2 

       Methodology ....................................................................................................................... 2 


FINDING AND RECOMMENDATION .................................................................................... 2 


     FEDERAL REQUIREMENTS ................................................................................................. 3 


     OVERPAYMENTS NOT RECOVERED ............................................................................. ... 3 


     RECOMMENDATION ............................................................................................................ 3 


     PINNACLE BUSINESS SOLUTIONS, INC., COMMENTS ................................................. 3 


APPENDIX

     PINNACLE BUSINESS SOLUTIONS, INC., COMMENTS




                                                                        111
                                       INTRODUCTION


BACKGROUND

Medicare Program

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, uses Medicare contractors, such as fiscal intermediaries (FI), to process and pay
Medicare claims submitted by health care providers. Section 911 of the Medicare Prescription
Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173, which became effective
on October 1, 2005, amended certain sections of the Act to require that Medicare administrative
contractors (MAC) replace FIs and carriers by October 2011.

Medicare Payment Requirements

Medicare contractors, such as FIs and MACs, must comply with Medicare laws, regulations, and
guidance, including provisions for processing payments to terminated Medicare providers.
Section 1866(b) of the Act provides for the termination of provider agreements, which set forth
the terms and conditions for participation in the Medicare program. Sections 1814(a) and 1866
of the Act generally do not allow payment for services provided on or after an agreement’s
termination date. The Medicare Financial Management Manual, Pub. No. 100-06, chapter 7,
requires Medicare contractors to maintain internal controls to prevent erroneous payments;
chapter 3 requires Medicare contractors to pursue recovery of overpayments, including those
made to terminated Medicare providers.

TriSpan Health Services, Inc. and Pinnacle Business Solutions, Inc.

TriSpan Health Services, Inc. (TriSpan) was the Louisiana and Mississippi FI during our audit
period (January 1, 2003, through January 31, 2007). In October 2009, the Louisiana and
Mississippi FI workload was reassigned to Pinnacle Business Solutions, Inc. (Pinnacle);
therefore, we are issuing our report to Pinnacle. CMS is currently taking corrective action on the
MAC contract award for the administration of Medicare Part A and Part B claims in Jurisdiction
7, which includes Louisiana and Mississippi.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether TriSpan recovered Medicare overpayments for services
furnished on or after the effective termination dates of provider agreements.




                                                1

Scope

We reviewed TriSpan payments to 145 providers with effective termination dates between
January 1, 2003, and January 31, 2007. The reviewed payments were for services furnished on
or after the providers’ effective termination dates. We limited our review of internal controls to
discussing with TriSpan officials the procedures used to retroactively identify and recover the
overpayments identified during our review.

Our fieldwork included contacting TriSpan in Flowood, Mississippi, and Pinnacle in North Little
Rock, Arkansas.

Methodology

To accomplish our objective, we:

   •	 used a CMS nationwide list of providers with effective termination dates during the audit
      period to query the National Claims History files;

   •	 identified 145 TriSpan-serviced providers that received Medicare payments for services
      furnished during or after our audit period;

   •	 analyzed CMS, National Claims History, and TriSpan data and identified four providers
      that each received $5,000 or more in overpayments for services furnished on or after the
      providers’ effective termination dates; and

   •	 worked with TriSpan and Pinnacle to quantify the overpayments that were subject to
      recovery as of the start of our audit.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

TriSpan did not always recover Medicare overpayments for services furnished on or after the
effective termination dates of provider agreements. For 141 of the 145 terminated providers
whose payments we reviewed, TriSpan had not made material overpayments that were subject to
recovery as of the start of our audit. However, for the four remaining providers, TriSpan had not
recovered a total of $124,768 in overpayments that were subject to recovery. TriSpan had not
recovered the overpayments because it did not follow its procedures to retroactively identify
payments for posttermination services. Both TriSpan and Pinnacle confirmed that the
overpayments were subject to recovery.




                                                 2

FEDERAL REQUIREMENTS

Section 1814(a) of the Act provides that “payment for services furnished an individual may be
made only to providers of services which are eligible therefor under section 1866 [which sets
forth the requirements for provider agreements]….” Pursuant to section 1866(b)(2) of the Act
and 42 CFR §§ 489.53 and 489.54, CMS or the Office of Inspector General may terminate a
provider agreement for cause. Additionally, section 1866(b)(1) of the Act and 42 CFR § 489.52
permit a Medicare provider to voluntarily terminate its provider agreement. Except in certain
limited circumstances considered during this audit, such as those described in 42 CFR § 489.55,
no Medicare payment is available for services furnished to a beneficiary on or after the effective
date of termination of a provider agreement.

The Medicare Financial Management Manual, Pub. No. 100-06, chapter 7, requires Medicare
contractors to maintain internal controls to prevent and detect erroneous payments; chapter 3
requires Medicare contractors to pursue recovery of overpayments.

OVERPAYMENTS NOT RECOVERED

As of the start of our audit, TriSpan had not recovered Medicare overpayments to four providers
for services furnished on or after the providers’ effective termination dates. The table below
shows the number of unallowable claims and the overpayment amount for each provider. Both
TriSpan and Pinnacle confirmed that these overpayments were subject to recovery.

                            Unallowable Claims and Overpayments
                                        Unallowable
                                          Claims         Overpayments
                          Provider A         23             $83,913
                          Provider B          7              18,198
                          Provider C         28              15,272
                          Provider D         32               7,385
                            Total            90            $124,768

TriSpan had not recovered the overpayments before our audit because it did not follow its
procedures to retroactively identify the payments.

RECOMMENDATION

We recommend that Pinnacle recover $124,768 in overpayments to the four terminated
providers.

PINNACLE BUSINESS SOLUTIONS, INC., COMMENTS

In written comments to our draft report, Pinnacle agreed with our recommendation and provided
information on the status of its recovery efforts. Pinnacle’s comments are included in their
entirety as the Appendix.


                                                3

APPENDIX

                                                                                                              Page 1 of 3 



APPENDIX: PINNACLE BUSINESS SOLUTIONS, INC., COMMENTS




                                                                ISO 9001:2008 certified

                                                                                                 MEDICARE
                                                                                      Part A Inte rmediarv
                                                                                                Part B Carrier

                                                                                                  Reg ina H. FavotS
                                                                                                   President & ceo
                                                                                              Office 501-210-9036
                                                                                                 Fa. 501-378-2391
                                                                                          mla""rs@I:Iinnadebsi.oom

June 18,2010

Mr. James C. Cox
Regional Inspector General for Audit Services
Office of Inspector General
Office of Audit Services. Region V
233 North Michigan Avenue, Suite 1360
Chicago, II. 60601


Subject:        Report Number A-OS-09-00104
                Response to Draft Repon Entitled "Review of TriSpan Health Services, Inc., Medicare
                Payments 10 Providers Tenninatcd Between January 1,2003, and January 31, 2007"


Dear Mr. Cox:


We have reviewed the findings and recommendations based on your review of Medicare payments \0
providers tenninatcd between January 1, 2003, and January 31, 2007 in the draft report dated May 21,
20 10. We offer the following comments to the findings and recommendations identified in the draft
report.

Based on our review, it is evident that TriSpan had procedures in place to identify payments for
services furnished to providers after the effective date oftennination; however, weaknesses were
identified in their processes that allowed several providers to be paid for services for dates on or after
tennination. Moreover, the Centers for Medicare and Medicare Services may issue the notice of the
tennination of the provider agreement many months after a provider has tenninated from the Medicare
program, adding significantly to the contractor's burden in preventing payment of such services.
Regardless, Pinnacle Business Solutions. Inc., as the current Fiscal lntennediary for the former
TriSpan providers, is taking actions to ensure that its policies, procedures and controls are effcctive in
preventing and detecting payments for services on or after a provider's termination.
                                                                                                         Page 2 of 3 





    James Cox
June 18.2010
Page 2 00


As you requested in the transmittal letter to the draft report, we are submitting the comments below in
response to your findings and recommendations. The following details actions that were taken for
each provider identified in the table of the draft report prior to the completion of the audit, as well as
planned future actions to implement recommendations:

        finding 1:     Provider A, 23 Unallowable Claims, Overpayment Amount - $83,913

        Response:      TriSpan canceled five of the 23 claims and recovered them from the provider on
                       May 24, 2008. Therefore, a total of$14,229 has been collected and the
                       remaining overpayment amount is S69,684.00. Several attempts were made to
                       cancel the remaini ng 18 claims; however, as a result of a technical problem with
                       the retrieval of old claims offline from Fiscal Intermediary Standard System
                       (FISS), TriSpan was not successful with canceling those claims. Pinnacle is still
                       waiting on resolution of the problem in FlSS that will allow the retrieval and
                       canceling of the claims for recovery of the overpayment.

       Finding 2:      Provider B, 7 Unallowable Claims, Overpayment Amount - $ 18, 198

       Response:       TriSpan canceled six of the seven claims and collected thc ovcrpayment via a
                       check from the provider on July 29, 2009. Therefore, a total of $15,605.70 has
                       been collected and the remaining ovcrpaymcnt amount is $2,592.58. Pinnacle
                       will cancel and recover the overpayment on the one additional claim.

       Finding 3:      Provider C, 28 Unallowable Claims, Overpayment Amount - $15,272

       Response:       TriSpan canceled 27 of the 28 claims and recovered them on June 10 2009.
                       Therefore, a total ofS 15,004 has been collected and the remaining overpayment
                       amount is 5267.20. Several attempts were made to cancel the remaining claim;
                       however, as a result of a technical problem with the retrieval of old claims
                       omine from Fiscal Intermediary Standard System (FISS), TriSpan was not
                       successful with canceling the claim. Pinnacle is still ....'ailing on resolution of the
                       problem in fI SS that will allow the retrieval and canceling of the claims for
                       recovery of the overpayment.

       Finding 4:      Provider D, 32 Unallowable Claims, Ovcrpayment Amount - $7,385

       Response:       TriSpan canccled 30 of the 32 claims and demanded the overpayment from the
                       provider. Efforts to collect the overpayment from thc provider have had littlc
                       success. TriSpan referred the overpayment to Treasury through Ihe debt
                       collection systcm and received approval to classify the overpayment as currentiy
                       not collectible as of June I , 2009. Several attempts were made to cance1the
                       remaining two claims; howevcr, as a result of a technical problem wilh the
                       retrieval of old claims omine from Fiscallntennediary Standard System (FISS),
                       TriSpan was nol successful with canccling the claims. Pinnacle is still waiting
                       on resolution of the problem in FISS that will allow the retrieval and canceling
                       of the claims for recovcry of the overpayment.

                         PBSI - 5t5 W. Pef5hing Blvd. - North Little Rod<:, AR 72114
                             A CMS CONTRACTED INTERMEDIARY AND CARRIER
                                                                                                  Page 3 of 3 





Mr. Jaml!s Cox
June 18,2010
Page 3 oD


We concur with your recommendation that Pinnacle recover the overpayments to the four tenninated
providers. As noted in our responses above, $44,839 has already been collected and as soon as the
claims are available from the omine system, Pinnacle will take action to cancel any remaining claims
and recover the overpayment amount 0[$79,929 through our established collection process.

Thank yo u for the opportunity to offer comments on the draft findings and recommendations. If you
have any questions about this matter or require additional information, please contact Amanda Crosby
in our Provider Audit and Reimbursement office at (501 )-918-7469.


Sincerely,
